OIG Investigative Reports, Man Arrested for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Dyer, Indiana, October 11, 2001
Contact Person
Joseph S. Van Bokkelen
United States Attorney
1001 Main Street, Suite A
Dyer, Indiana 46311
Man Arrested for Student Loan Fraud
The United States Attorney's Office announced that a Grand Jury sitting in Hammond, Indiana, previously returned the following indictment:
NAMON ARNOLD, age 44, who was the owner and operator of the Hammond Academy
of Beauty, located in Hammond, Indiana, has been charged with obtaining Pell Grant funds by
fraud beginning in December 1992 and continuing until June 1997. Additionally, he was
charged with several counts of money laundering as it is alleged he took steps to hide and
conceal this source of illegitimate funds. Mr. Arnold was arrested on October 10, 2001 and the
indictment was unsealed. Statutory maximum sentence upon conviction for this indictment is
115 years. This charge was filed as the result of an investigation by the United States
Department of Education, the Internal Revenue Service, and the United States Postal Inspection
Service.  This case has been assigned to and will be prosecuted by Assistant United States
Attorney Jonathan L. Marks, who can be reached at 219-322-8576 for any inquiries.
The United States Attorney's Office emphasized that an indictment is merely an allegation
and that all persons charged are presumed innocent until and unless proven guilty in court.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov